La
I

C@QCKLE

Le g al Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-161

DEPARTMENT OF HOMELAND SECURITY, ET AL.,
Petitioners,

Vv.
VIJAYAKUMAR THURAISSIGIAM,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR THE STATES OF ILLINOIS, CALIFORNIA,
CONNECTICUT, DELAWARE, HAWAII, MAINE, MARYLAND, MASSACHUSETTS, MICHIGAN, MINNESOTA,
NEW JERSEY, NEW MEXICO, NEW YORK, OREGON, PENNSYLVANIA, RHODE ISLAND, VERMONT, VIRGINIA,
AND WASHINGTON AND THE DISTRICT OF COLUMBIA AS AMICI CURIAE IN SUPPORT OF RESPONDENT in the

above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to
the following:

SEE ATTACHED
To be filed for:
SARAH A. HUNGER KWAME RAOUL
Deputy Solicitor General Illinois Attorney General
KATHRYN HUNT MUSE JANE ELINOR NOTZ*
Deputy Chief, Solicitor General
Public Interest Division 100 West Randolph Street
JEFF VANDAM Chicago, Illinois 60601
Public Interest Counsel (312) 814-5376

jnotz@atg.state.il.us
*Counsel of Record

Subscribed and sworn to before me this 22nd day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ete  C Clit Qdiaw-h, Cllr

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 39140

 
 

Attorneys for Petitioners

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOVJ.gov

Party name: Department of Homeland Security, et al.

 

 

Attorneys for Respondent

Lee Gelernt American Civil Liberties Union 212-549-2616
Counsel of Record 125 Broad St.
New York, NY 10004-2400

Igelernt@aclu.org

Party name: Vijayakumar Thuraissigiam

 

 
